        February 23, 2006




 Acquisition
 Spare Parts Procurements From
 TransDigm, Inc.
 (D-2006-055)




This special version of the report has been revised to omit contractor proprietary data.




                         Department of Defense
                        Office of Inspector General
   Quality                             Integrity                    Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Corporate Analysis and Planning at (703)
  604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Corporate Analysis and
  Planning at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and
  requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DLA                   Defense Logistics Agency
DSCC                  Defense Supply Center, Columbus, Ohio
DSCR                  Defense Supply Center, Richmond, Virginia
FAR                   Federal Acquisition Regulation
FASA                  Federal Acquisition Streamlining Act
GAO                   Government Accountability Office
NSN                   National Stock Number
OEM                   Original Equipment Manufacturer
OIG                   Office of Inspector General
TINA                  The Truth in Negotiations Act
                                 INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704




                                                                                 February 23,2006
MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY
SUBJECT: Report on Spare Parts Procurements From TransDigm, Inc.
         (Report NO.D-2006-055)

      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.
        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Logistics Agency comments were partially responsive. We request
additional comments on Recommendation 6 by March 24,2006. If possible, please send
management comments in electronic format (Adobe Acrobat file only) to
joset>h.bucsko@,dodig.mil. Copies of the management comments must contain the actual
signature of the authorizing official. We cannot accept the / Signed / symbol in place of
the actual signature.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Henry F. Kleinknecht at (703) 604-9324 (DSN 664-9324) or Mr. Joseph P. Bucsko
at (703) 604-9337 (DSN 664-9337). For the report distribution, see Appendix F. The
team members are listed inside the back cover.
                                   By direction of the Deputy Inspector General for Auditing:



                                               Richard B. ~olliffe
                                         Assistant Inspector General
                                     Acquisition and Contract Management




                                  Special Warning
This special version of the report has been revised to omit contractor proprietary data.
                     Department of Defense Office of Inspector General
Report No. D-2006-055                                                February 23, 2006
      (Project No. D2004-D000CH-0189.000)

                   Spare Parts Procurements From TransDigm, Inc.

                                           Executive Summary

Who Should Read This Report and Why? Acquisition and contracting personnel
within DoD and the Military Departments should read this report because it concerns the
rapidly increasing cost of spare parts and its adverse impact on the DoD challenge to
maintain a superior level of combat readiness and force structure as well as improve
equipment quality and responsiveness. Since the terrorist attacks of September 11, 2001,
and with the ongoing operations in Afghanistan and Iraq, demands for spare parts have
increased. The procurement of spare parts is essential in assisting war fighters with
carrying out their missions.

Allegation. This audit was initiated in response to a Defense Hotline allegation that
AeroControlex was charging the Defense Logistics Agency excessive prices and using
the commercial item definition to avoid the Federal requirement to provide cost or
pricing data. Specifically, the complaint involved the procurement of an oil pump
assembly housing with a military application to the Air Force F-15 aircraft. The Defense
Logistics Agency procured the oil pump assembly from AeroControlex after Honeywell
International transferred the intellectual property, design authority, and manufacturing
responsibility. The allegation was substantiated; see Appendix C for more details on the
allegation and the audit results.

Background. AeroControlex, Adams Rite Aerospace, Adel Wiggins, Champion
Aerospace, and Marathon Norco Aerospace are subsidiaries of TransDigm, Inc., which
was established in July 1993 and is controlled by Warburg Pincus Private
Equity VIII L.P. In 2003, TransDigm reported net sales totaling approximately
$293.3 million, of which 72 percent was generated from the commercial sector and
28 percent from the defense sector, with DoD as TransDigm’s largest customer.

Results. Given the constraints of a sole-source contracting environment, Defense
Logistics Agency contracting officers were unable to effectively negotiate prices for
spare parts procured from TransDigm subsidiaries. We recognize the difficulty
contracting officers have had obtaining cost data since the inception of the Federal
Acquisition Streamlining Act of 1994 and Federal Acquisition Reform Act of 1996;
however, we believe that cost analysis is the most effective means to validate prices for
sole-source spare parts. Using cost analysis, we calculated that the Defense Logistics
Agency paid about $5.3 million or 1 percent more than the fair and reasonable price for
                        1
77 parts that cost $           (based on annual demand). If problems are not addressed,
the Defense Logistics Agency will pay about $31.8 million more than fair and reasonable
prices for the same items over the next 6 years. The Defense Logistics Agency also
needs to seek a voluntary refund of about $2.6 million for overpriced parts identified in

1
    Contractor proprietary data omitted.
the report where contracting officers made a reasonable attempt to obtain cost data but
were denied the information. See Appendix D for the amount overpaid for each of the
77 parts and Appendix E for more specific information on recommended voluntary
refunds.

We recommend that the Director, Defense Logistics Agency alert contracting officers,
when using price analysis of previous Government prices to determine price
reasonableness for sole-source spare parts, to perform periodic cost analysis to establish
the validity of the comparison and the reasonableness of the previous prices; discontinue
using the Navy Price Fighters to perform price analyses similar to the work performed by
DLA contracting representatives on spare parts procurements; and emphasize the
importance of validating the reasonableness of previous Government prices when using
price analysis as a tool to justify fair and reasonable prices. We recommend the Director
emphasize the importance of obtaining cost or pricing data and the necessity to provide
adequate justifications for waivers to cost or pricing data for sole-source items; seek a
voluntary refund of about $2.6 million for overpriced parts identified in the report; and
require the Commanders of the Defense Supply Centers Columbus, Ohio, and Richmond,
Virginia, to discontinue using competition between sole-source manufacturers and
dealers to determine price reasonableness. We recommend the Director require the
Commander, Defense Supply Center Columbus, Ohio to develop procedures and
appropriate controls to ensure option year pricing for delivery orders is accurate; and to
either establish a strategic supplier alliance with TransDigm subsidiaries using cost data
to negotiate fair and reasonable prices or develop and execute a strategy to reengineer
and compete high dollar value spare parts. See the Finding section of the report for the
detailed audit results and recommendations.

Management Comments and Audit Response. We received comments from the
Director of Logistics Operations, Defense Logistics Agency on the draft report. The
Director generally concurred with the report finding and recommendations. However,
management comments did not meet the intent of the recommendation discussing the use
of competition between a sole-source manufacturer and dealers to determine price
reasonableness.

Therefore, we request that the Director, Defense Logistics Agency provide additional
comments on Recommendation 6 by March 24, 2006.

See the Finding section of the report for a discussion of management comments on the
recommendations and our audit response. See the Management Comments section of the
report for the complete text of comments.




                                            ii
Table of Contents

Executive Summary                                             i

Background                                                    1

Objective                                                     2

     Managers’ Internal Control Program                       2

Finding
     Prices for Sole-Source Spare Parts                       3

Appendixes
     A.   Scope and Methodology                              20
     B.   Prior Coverage                                     23
     C.   Defense Hotline Allegation                         25
     D.   Comparison of Contract and OIG Cost-Based Prices   28
     E.   Items Identified for Voluntary Refunds             32
     F.   Report Distribution                                33

Management Comments
     Defense Logistics Agency                                35
Background
           During the last 9 years, the DoD Office of Inspector General (OIG) has worked
           closely with the Defense Logistics Agency (DLA) and other DoD components to
           achieve fair and reasonable prices for sole-source commercial and noncommercial
           spare parts. See Appendix B for a list of the prior audit reports. This audit was
           initiated in response to a Defense Hotline allegation that AeroControlex Group
           was charging the Government excessive prices and avoiding the Federal
           requirement to submit cost or pricing data by declaring that items were
           commercial. The Defense Hotline complaint involved an oil pump assembly
           housing procured for the first time since Honeywell International transferred the
           intellectual property, design authority, and manufacturing responsibility to
           AeroControlex. See Appendix C for the allegation and audit results.

           Honeywell Product Line Licensing Agreement. During 2001, AeroControlex
           reached a series of agreements with Honeywell International that granted
           AeroControlex an exclusive worldwide license to produce and sell products
           comprising Honeywell’s lubrication and scavenge pump product line for a
           minimum of 40 years. From these agreements, AeroControlex also acquired
           $5.9 million of related inventory1. Figure 1 shows a lubrication and scavenge
           pump supplied by AeroControlex.




           Figure 1. AeroControlex Lubrication and Scavenge Pump

1
    Licensing agreement data obtained from TransDigm’s 2003 10-K filed with the Securities and Exchange
    Commission.

                                                    1
    TransDigm. AeroControlex, Adams Rite Aerospace, Adel Wiggins, Champion
    Aerospace, and Marathon Norco Aerospace are subsidiaries of TransDigm, which
    was established in July 1993 and is controlled by Warburg Pincus Private
    Equity VIII L.P. Figure 2 shows the organizational structure of TransDigm, the
    location of each subsidiary, when the subsidiary was acquired, and each
    subsidiary’s main product lines.

                                                     TransDigm
                                                     Cleveland, OH
                                                    Established 1993




          Adel Wiggins                          AeroControlex                              Marathon Norco
          Los Angeles, CA                           Painesville, OH                          Aerospace
           Acquired 1993                            Acquired 1993                                Waco, TX
          Flexible connectors,                                                                 Acquired 1997
       clamps, quick disconnects               Pumps, valves, controls                   Batteries, power equipment




                            Adams Rite                                      Champion
                            Aerospace                                       Aerospace
                            Fullerton, CA                                   Liberty, SC
                            Acquired 1999                                  Acquired 2001
                        Locks, latches, controls,                      Igniters, oil filters, spark
                           oxygen products                                        plugs


    Figure 2. TransDigm, Inc. Organization Chart

    In 2003, TransDigm reported net sales totaling approximately $293.3 million, of
    which 72 percent was generated from the commercial sector and 28 percent from
    the defense sector, with DoD as TransDigm’s largest customer.


Objective
    Our overall audit objective was to evaluate whether prices charged by
    AeroControlex for spare parts were fair and reasonable. We expanded our scope
    of review to AeroControlex’s parent company, TransDigm, and all its
    subsidiaries. Due to the limited scope of the overall audit, we did not review the
    DLA managers’ internal control program. See Appendix A for a discussion of the
    scope and methodology.




                                                     2
                    Prices for Sole-Source Spare Parts
                    Given the constraints of a sole-source contracting environment, DLA
                    contracting officers were unable to effectively negotiate prices for spare
                    parts procured from TransDigm subsidiaries. This condition occurred
                    because the contracting officers or the head of the contracting activity:

                             •    used price analysis of questionable prior Government prices to
                                  determine price reasonableness and were unable to perform
                                  cost analysis to validate the offered prices,

                             •    inappropriately waived the submission of cost or pricing data
                                  for a long-term indefinite-quantity contract with an estimated
                                  total value over $10 million, and

                             •    wrongly considered prices to be reasonable based on
                                  competition between a sole-source manufacturer and dealers.

                    We calculated that DLA paid about $5.3 million or 2 percent more than
                    the fair and reasonable price3 for 77 parts that cost about $      2
                                                                                             . If
                    problems are not addressed, DLA will pay about $31.8 million more than
                    fair and reasonable prices for the same items over the next 6 years. DLA
                    also needs to seek a voluntary refund of about $2.6 million for overpriced
                    parts identified in the report where contracting officers made a reasonable
                    attempt to obtain cost data but were denied the information. We recognize
                    the difficulty contracting officers have had obtaining cost data to ensure
                    the integrity of prices for sole-source spare parts since the inception of the
                    Federal Acquisition Streamlining Act of 1994 (FASA) and the Federal
                    Acquisition Reform Act of 1996.


Guidance
           Legislative Guidance. The Truth in Negotiations Act of 1962 (TINA) allows
           DoD to obtain cost or pricing data (certified cost information) from Defense
           contractors to ensure the integrity of DoD spending for military goods and
           services that are not subject to marketplace pricing. FASA and the Federal
           Acquisition Reform Act of 1996 were designed to streamline acquisition laws,
           facilitate the acquisition of commercial products, and eliminate unnecessary
           statutory impediments to efficient and expeditious acquisition. The Acts
           significantly broaden the commercial item definition and allow more sole-source
           items to qualify for the “commercial item” exception to cost or pricing data.



2
    Contractor proprietary data omitted.
3
    Fair and reasonable prices were calculated using cost analysis and include a profit in line with other DLA
    strategic supplier alliances. For consistency, we used annual demand quantities and the most recent
    purchase price (as of July 18, 2005) to calculate total amounts that exceeded the fair and reasonable price.

                                                        3
              Federal Acquisition Regulation. The Federal Acquisition Regulation (FAR)
              15.402, “Pricing Policy,” requires contracting officers to purchase supplies and
              services from responsible sources at fair and reasonable prices. Contracting
              officers can determine fair and reasonable prices based on adequate competition,
              information related to prices such as price analysis, or information related to
              costs.

              FAR 15.404-1(b)(2)(ii) requires the contracting officer to determine both the
              validity of the comparison and the reasonableness of the previous price when
              performing price analysis. Specifically, the Regulation states:
                                    (ii) Comparison of previously proposed prices and previous
                          Government and commercial contract prices with current proposed
                          prices for the same or similar items, if both the validity of the
                          comparison and the reasonableness of the previous price(s) can be
                          established. [emphasis added]



Price Negotiations
              DLA contracting officers did not effectively negotiate prices for sole-source spare
              parts procured from TransDigm subsidiaries. We calculated that DLA paid about
              $5.3 million or 4 percent more than the fair and reasonable price for 77 parts
                                  4
              that cost about $         .

              Table 1 shows the excessive profits paid to each TransDigm subsidiary.

                    Table 1. Summary of Excessive Profit Paid to Each TransDigm Subsidiary
                                                                            Total Price                       Excessive Profit
                                                                                       OIG Cost-
          TransDigm Subsidiary                       Items              Contract     Based Price1              Amount        Percent
                                                                        3                 3                     3                3
          Adams Rite                                     3      $                    $                    $
                                                                        3                   3                   3                3
          Adel Wiggins                                  19
                                                                        3                   3                   3                3
          AeroControlex                                 33
                                                                        3                   3                   3                3
          Champion                                      15
                                                                        3                   3                   3                3
          Marathon Norco                                 7

                                                                        3                   3       2           3       2        3
              Total                                    77       $                     $                   $
          1
            The OIG cost-based prices were calculated by using cost analysis and include a profit in line with other DLA strategic
          supplier alliances.
          2
              Slight rounding inconsistencies may exist because auditor calculations went beyond two decimal places.
          3
              Contractor proprietary data omitted.



              See Appendix D for the amount overpaid for each part.


4
    Contractor proprietary data omitted.

                                                                    4
              Table 2 shows the different methods contracting officers used to determine price
              reasonableness and the amount overpaid to TransDigm.

                        Table 2. Excessive Profit Paid to TransDigm Based on Cost Analysis
                                                               Total Price           Excessive Profit
                                                                       OIG Cost-
         Basis for Price Reasonable          Items       Contract      Based Price    Amount Percent
         Price analysis
                                                            2               2          2            2
            Determined reasonable               34     $               $           $
                                                            2               2          2            2
            Waiver of cost or pricing data      15
                                                            2               2          2            2
            Determined unreasonable             22
                                                            2               2          2            2
         Dealer/manufacturer competition          6
                                                                            2                  2                      2   1   2
                 Total                                       77      $                  $                    $
         1
             Slight rounding inconsistencies may exist because auditor calculations went beyond two decimal places.
         2
             Contractor proprietary data omitted.


Price Analysis
              Determined Reasonable. We calculated that DLA paid about $2.3 million or
                5
                    percent more than fair and reasonable prices for 34 items determined
              reasonable by DLA contracting officers. The excessive prices were paid because
              the contracting officers relied on questionable price analysis of previous
              Government procurements, including price analysis performed by the Navy Price
              Fighters, and made other questionable decisions to determine fair and reasonable
              prices. DLA contracting officers determined prices fair and reasonable for the
              34 items based on the comparison of previous Government contract prices
              without establishing the validity of the comparison and the reasonableness of the
              previous prices. In addition, DLA contracting officers typically did not request
              information other than cost or pricing data and perform cost analysis to verify
              cost elements and establish the validity of the comparison.

              For example, in July 2004, the Defense Supply Center Columbus, Ohio (DSCC)
              purchased 70 quick disconnect couplings (National Stock Number [NSN] 4730-
              00-720-2000) at a unit price of $3,066 from AeroControlex. The contracting
              officer determined the price fair and reasonable by using the price analysis
              technique of comparison with a 2001 Government contract price of $4,147 each
              for 22 items. The July 2004 price was 26.1 percent less than the 2001 price. We
              calculated that the fair and reasonable unit price for the item was only $ 5 and
              determined that DLA paid 5 more than a fair and reasonable price in July 2004.
              Further, we calculate that DLA paid 5 more than a fair and reasonable price
              when contracting officers purchased 23 quick disconnect couplings at a unit price
              of $4,147 in February 2005. This example shows that price analysis of previous
              Government prices is not effective once an inaccurate price is accepted into the
              procurement system and reinforces the need for the contracting officer to establish
              the validity of the comparison price.


5
    Contractor proprietary data omitted.

                                                                    5
Table 3 shows the purchases for the disconnect coupling since 1997, the percent
difference from the previous procurement, and the percent increase from the OIG
cost-based price.
                      Table 3. Purchase History Since 1997 for Quick Disconnect Couplings
                               (NSN 4730-00-720-2000) from AeroControlex

                                                                                            Percent Difference
                                                                                         Previous       OIG Cost-
    Contract                      Award Date                 Qty      Unit Price         Purchase     Based Price1
SP0770-97-C-4261                      April 4, 1997          70        $1,900                     -             -
SP0740-00-M-3972                     June 14, 2000           16         4,595                141.8              -
SP0740-00-M-3974                     June 16, 2000           17         4,595                    0              -
SP0740-00-M-4056                     July 27, 2000           14         4,595                    0              -
SP0740-01-C-5202                November 21, 2000            47         3,564                (22.4)             -
SP0740-01-C-6210                    April 30, 2001           22         4,147                 16.4              -
                                                                                                                2
SP0720-04-C-0121                     July 29, 2004           70         3,066                (26.1)
                                                                                                                2
SP0720-05-M-6035                  February 1, 2005           23         4,147                 35.3

1
    OIG cost-based price was calculated by using cost analysis and includes a profit in line with other DLA strategic
supplier alliances.
2
    Contractor proprietary data omitted.



DLA contracting officers, when using price analysis of previous Government
prices to determine price reasonableness for sole-source spare parts, should
perform periodic cost analysis to establish the validity of the comparison and the
reasonableness of the previous prices.

        Navy Price Fighters Analysis. DLA contracting officers also relied on
the Navy Price Fighters to support price justifications. Federal regulations
encourage the contracting officer to request field pricing assistance when the
information available at the buying activity is inadequate. However, the Navy
Price Fighters were not able to obtain data beyond what was already available to
DLA; they could only perform the same price analysis of previous Government
prices that DLA contracting representatives performed. As a result, the analysis
performed by the Navy Price Fighters was of no additional value to the price
evaluation process for these procurements.

For example, the Navy Price Fighters performed price analysis for a coupling
assembly (NSN 1680-01-203-7389). The Navy Price Fighters determined the
April 2003 unit price of $2,677, which was a 21.8 percent increase from the
September 2002 unit price of $2,198.67, was consistent with historical pricing.
The September 2002 unit price of $2,198.67 included a unit price increase from
$1,753 or 25.4 percent for accelerated delivery. The Navy Price Fighters
requested technical and cost data from TransDigm to help explain the price
increases from September 2002 to April 2003, but TransDigm refused to provide
the information. Subsequently, the Navy Price Fighters reported that the
increasing prices were the result of manufacturing and overhead costs being
amortized over decreasing procurement quantities, despite the fact that they had
no cost data to support this conclusion. The contracting officer relied on the

                                                         6
           Navy Price Fighters price analysis to determine the April 2003 price fair and
           reasonable and ignored a December 2002 purchase with a unit price of $1,535,
           despite the offered unit price of $2,677 being 74.4 percent higher. With cost data
           obtained from the contractor, we calculated that the fair and reasonable unit price
           for the coupling assembly was $ 6 and that the January 2005 contract unit price
           of $3,015 was 6 percent more than a fair and reasonable price.

           DLA should discontinue using the Navy Price Fighters to perform price analyses
           similar to the work performed by DLA contracting representatives on spare parts
           procurements.

                   Other Questionable Decisions. Contracting officers applied other
           ineffective price analysis techniques to determine fair and reasonable prices for
           seven items. Specifically, the contracting officers relied on an incomplete
           technical analysis and inadequate commercial sales comparisons, and made
           determinations based on unsupported judgments. For example, a contracting
           officer relied on an incomplete technical analysis conducted by DSCC value
           engineering personnel and on a commercial sales comparison to determine the
           price fair and reasonable for spur gear shafts (NSN 3040-01-037-8554). The unit
           price increased from $1,080.95 in December 2001 to $2,127 in March 2003 or
           96.8 percent. The DSCC technical analysis was incomplete because it failed to
           identify the similar item used in the comparison. Consequently, we were unable
           to verify how the decision was made, what data existed, and whether the data
           established a reliable basis for price justification. The commercial sales invoices
           provided by TransDigm contained significantly lower quantities than the current
           DoD requirement and did not represent a valid commercial marketplace because
           the sales were to Honeywell, the original equipment manufacturer of the item.
           DLA paid $2,127 for each spur gear shaft. We calculated that DLA paid
            6
                percent more than the fair and reasonable price of $ 6 . Therefore, we
           calculated that DLA paid $ 6 (based on an annual demand quantity of 83),
           which is $ 6 more than a fair and reasonable price of $ 6 .

           Similarly, another contracting officer made an unsupported determination that the
           offered price for regulator valves (NSN 4820-01-004-6588) was reasonable. The
           unit price increased 48.6 percent from $1,833.59 in September 1999 to $2,724.80
           in January 2003. The DSCC contracting officer justified the price increase by
           stating “the administrative costs to verify the reasonableness of this offered price
           may outweigh the offset of potential savings from detecting an instance of
           overpricing.” The contracting officer lacked a valid basis for determining the
           price reasonable. We calculated a fair and reasonable unit price for the regulator
           valves of $ 6 ; therefore, based on the December 2004 unit price of $2,795.52,
           DLA will pay $ 6 for 47 items (annual demand quantity), which is $ 6
           ( 6 percent) more than a fair and reasonable price of $ 6 .

           DLA needs to emphasize the importance of validating the reasonableness of
           previous Government prices when using price analysis as a tool to justify fair and
           reasonable prices.


6
    Contractor proprietary data omitted.

                                                7
              Cost or Pricing Data Waiver. On September 13, 2002, the Commander, DSCC
              inappropriately waived the submission of cost or pricing data for long-term
              indefinite-quantity contract SP0740-02-D-1041 with an estimated total value of
              more than $10 million (as of July 18, 2005, about $3.4 million has been
              purchased), based solely on the price analysis of previous procurements. We
                                                                              7
              calculated that DSCC will pay (based on annual demand) $             , which is
                           7                                                         7
              $372,273 (      percent) more than a fair and reasonable price of $          for the
              15 sole-source items reviewed on the long-term contract. These 15 items
              represented 58.9 percent of the annual contract value for sole-source parts. DSCC
              negotiated prices as high as 7 percent more than a fair and reasonable price
              and over 7 percent more than a fair and reasonable price for 7 of the 15 items.
              Table 4 shows the excessive profit negotiated for the 15 items on the contract
              with Adel Wiggins.

                  Table 4. DLA Negotiated Prices for 15 Selected Items on Contract SP0740-02-D-1041
                                                              Contract                     OIG Cost-Based Price                 Excessive Profit
                    NSN                     Qty1      Unit Price2      Total               Unit Price3  Total                  Amount     Percent
                                            4                                   4                 4               4                 4              4
        4730-00-057-3074                                $1,291.85          $                $                $                $
                                            4                                  4                 4                 4                4              4
        4730-00-077-0965                                    722.83
                                            4                                  4                 4                 4                4              4
        4730-00-111-2538                                    469.04
                                            4                                  4                 4                 4                4              4
        4730-00-111-2539                                    319.69
                                            4                                  4                 4                 4                4              4
        4730-00-275-7943                                  1,209.85
                                            4                                  4                 4                 4                4              4
        4730-00-309-2678                                    309.64
                                            4                                  4                 4                 4                4              4
        4730-00-333-5311                                    412.19
                                            4                                  4                 4                 4                4              4
        4730-00-555-9263                                    724.27
                                            4                                  4                 4                 4                4              4
        4730-00-803-7727                                    194.03
                                            4                                  4                 4                 4                4              4
        4730-01-029-7790                                    607.62
                                            4                                  4                 4                 4                4              4
        4730-01-054-1118                                    479.73
                                            4                                  4                 4                 4                4              4
        4730-01-123-6898                                  1,401.43
                                            4                                  4                 4                 4                4              4
        4730-01-200-0850                                  1,420.53
                                            4                                  4                 4                 4                4              4
        4820-00-100-4337                                    341.81
                                            4                                  4                 4                 4                4              4
        4820-01-030-7160                                  1,714.64
                                                                                4                                 4                 4              4
            Total (15 Items)                                               $                                 $                $

        1
            The quantity is the FY 2005 annual demand provided by DLA.
        2
            The contract unit price is the second option year price for each item on this contract. Slight rounding inconsistencies may exist because
        auditor calculations went beyond two decimal places.
        3
            The OIG cost-based unit price is the most recent unit cost as presented by the contractor, plus a profit in line with other DLA strategic
        supplier alliances.
        4
            Contractor proprietary data omitted.




7
    Contractor proprietary data omitted.

                                                                       8
           Although the DSCC contracting officer was able to negotiate lower prices for 5 of
           the 15 items reviewed, the negotiated prices were still excessive because the
           DSCC contracting officer failed to obtain cost data to validate the comparison and
           the reasonableness of the prior price. For example, Adel Wiggins originally
           proposed $ 8 per unit for a quick disconnect coupling (NSN 4730-01-029-7790).
           The DSCC contracting officer counteroffered a base year unit price of $604.40
           (option year unit price of $607.62). This counteroffer was accepted by Adel
           Wiggins. However, a fair and reasonable unit price for the item was $ 8 ; thus,
           DSCC negotiated an option year unit price that was 8 percent more than the
           fair and reasonable price.

           According to the justification document, the purpose for waiving the cost or
           pricing data requirement was to expedite the contract award, “as price
           reasonableness can be determined without the added time and expense of
           acquiring cost and pricing data.” Specifically, the waiver states:

                    Pursuant to FAR 15.403-4(a)(1), TransDigm would be required to
                    submit cost and pricing data as defined in FAR 15.403, together with
                    the certificate set forth in FAR 15.406-2. However, a waiver of
                    submission of cost and pricing data is being requested for the
                    following reasons: (a). All 96 NSNs being awarded to TransDigm
                    have historical pricing from which a comparison can be made using
                    the movement of the Producer’s Price Index for Aircraft Parts and
                    Auxiliary Equipment (PPI 1425) to substantiate a fair and reasonable
                    price. (b). The price history was reviewed for the 96 NSNs currently
                    being considered for award to TransDigm. For evaluation purposes,
                    the historical price that most closely matched the current demand
                    quantity while still being one of the most recent awards was selected
                    for comparison to the price developed using price analysis. Historical
                    prices that appeared out of the ordinary (spikes) were not selected as
                    they may have been based on an unreasonable price or an urgent
                    situation which would not be the normal procurement situation. (c).
                    Since only NSNs determined fair and reasonable through extensive
                    price analysis will be considered for award, certified cost and pricing
                    data is believed to be unnecessary based on the ability to determine
                    price reasonableness through other means. [emphasis added]

                  Guidance for Granting Waivers. FAR Part 15, “Contracting by
           Negotiation,” establishes that the requirement of submitting cost or pricing data
           may be waived in exceptional cases. Specifically, FAR 15.403-1(c)(4),
           “Waivers,” states:

                    The head of the contracting agency (HCA) may, without power of
                    delegation, waive the requirement for submission of cost or pricing
                    data in exceptional cases. The authorization for the waiver and the
                    supporting rationale shall be in writing. The HCA may consider
                    waiving the requirement if the price can be determined to be fair and
                    reasonable without the submission of cost or pricing data. For
                    example, if cost or pricing data were furnished on previous production

8
    Contractor proprietary data omitted.

                                                      9
                    buys and the contracting officer determines such data are sufficient,
                    when combined with updated information, a waiver may be granted.
                    [emphasis added]

           In response to Government Accountability Office (GAO) Report 02-502,
           “Contract Management: DOD Needs Better Guidance on Granting Waivers for
           Certified Cost or Pricing Data,” the Director, Defense Procurement and
           Acquisition Policy, issued a memorandum on February 11, 2003, clarifying an
           “exceptional case” waiver. The Director requires that all three criteria must be
           satisfied in order for the contracting officer to grant a waiver. Specifically, the
           memo states:

                    . . .the grant of an exceptional case waiver shall be made only upon a
                    determination that (1) the property or services cannot reasonably be
                    obtained under the contract, subcontract, or modification, without the
                    grant of the waiver; (2) the price can be determined to be fair and
                    reasonable without the submission of certified cost or pricing data; and
                    (3) there are demonstrated benefits to granting the waiver.

           The DSCC contracting officer believed the waiver request for contract
           SP0740-02-D-1041 also satisfied the recent acquisition guidance that the price
           could be determined fair and reasonable without the submission of cost or pricing
           data. The contracting officer also believed granting the waiver would eliminate
           added time and expense of obtaining and assessing cost or pricing data. The
           president of Adel Wiggins stated that the DSCC contracting officer never
           requested cost or pricing data. In addition, the contract file did not contain any
           documentation of a written request for cost or pricing data. Granting a waiver of
           cost or pricing data based solely on price analysis, especially for sole-source
           items, increases the risk that DoD will not accurately establish a fair and
           reasonable price and will pay excessive prices.

           DLA needs to emphasize the importance of obtaining cost or pricing data and the
           necessity to provide adequate justifications for waivers to cost or pricing data for
           sole-source items.

           Determined Unreasonable. DLA contracting officers determined that prices for
           22 of the 77 parts (28.6 percent) could not be found reasonable but purchased the
           items to ensure an adequate supply of needed spare parts was available for the
           war fighter. We calculated that DLA paid 9 percent or about $1.9 million
           more than fair and reasonable prices for these items. TransDigm had significantly
           increased prices for its sole-source spare parts and would not provide
           “information other than cost or pricing data” to include uncertified cost data when
           requested by contracting officials, despite the requisite authority provided in FAR
           15.403-3. TransDigm applies a commercial pricing strategy to its sole-source
           military-unique items although no commercial market exists to establish
           reasonable prices by the forces of supply and demand for the vast majority of
           items. This pricing strategy results in overpriced spare parts and increases the
           burden placed on the DoD budget.

9
    Contractor proprietary data omitted.

                                                      10
           For example, on contract SPO740-04-C-4647, the DSCC contracting officer
           purchased 578 oil pump assembly housings (NSN 2990-01-259-0589) used on the
           F-15 fighter aircraft at a unit price of $3,663.36 in December 2003. The unit price
           for the item, in March 2002, was $2,132.82; thus, the unit price increased
           71.8 percent in 21 months. The DSCC contracting officer had requested certified
           cost or pricing data to explain the substantial price increase; however,
           AeroControlex stated that the oil pump assembly housing was a commercial item
           and provided commercial sales information. The DSCC contracting officer then
           inappropriately determined the item was commercial despite the insufficient
           documentation. After the commercial determination was made, AeroControlex
           refused to provide more detailed cost data to support the substantial price
           increase. The DSCC contracting officer elevated the problems with this
           procurement to top officials in the chain of command, but again AeroControlex
           refused to provide requested information to support its price. Instead,
           AeroControlex offered a lower unit price of $ 10 to DSCC, contingent on a fair
           and reasonable price determination. DSCC management officials rejected this
           offer because the substantial price increase could not be adequately explained.
           Based on increasingly urgent demand, the DSCC contracting officer eventually
           purchased 578 oil pump assemblies at a unit price of $3,663.36 for a total price of
           $2,117,422. We calculated that a fair and reasonable unit price for the item was
           only $ 10 , for a total price of $ 10 . Consequently, DSCC paid
            10
                percent or over $ 10       more than a fair and reasonable price for this item.
           For more details surrounding this procurement, see the results of the Defense
           Hotline allegation in Appendix C.

                   Voluntary Refund. DLA needs to seek a voluntary refund of about
           $2.6 million for overpriced parts for which contracting officers made a reasonable
           attempt to obtain cost data but were denied the information. Appendix E lists
           items for which DLA should seek a voluntary refund.


Dealer/Manufacturer Competition
           DLA paid 10 percent or $766,430 more than fair and reasonable prices for the
           six items reviewed because contracting officers wrongly considered prices to be
           reasonable based on competition between a sole-source manufacturer and dealers.
           A sole-source manufacturer and a dealer cannot compete independently when the
           dealer is reliant on the sole-source manufacturer to fill the Government
           requirement. In the procurements reviewed, the prices quoted by the dealers were
           higher than the sole-source manufacturer and the delivery terms were mostly
           favorable to the sole-source manufacturer. As a result, the sole-source
           manufacturer was able to set the market price and had an inherent advantage in
           winning contract awards. Further, we surveyed 10 dealers about their normal
           processes when they quote prices for a Government requirement. The dealers
           consistently stated that they do not stock these parts and normally contact the
           sole-source manufacturer when a Government requirement becomes known. As a
           result, the dealers are not independent of the sole-source manufacturer. Further,
           because the Government accepted the contract prices as fair and reasonable,
10
     Contractor proprietary data omitted.

                                                11
           future procurements will be affected because those awards will be considered a
           valid basis for the next price comparison.

           Dealer Competition Example. In July 2003, DSCC purchased nine linear valves
           (NSN 4820-01-155-0138) at a unit price of $10,009, totaling $90,081 on contract
           SP0750-03-M-P418. We determined that DLA paid 11 percent more than the
           calculated fair and reasonable unit price of $ 11 . In February 2005, the unit
           price for this item increased to $13,546 for a quantity of eight units, which is
             11
                 percent more than the fair and reasonable price.

           Table 5 shows the unit price and the delivery terms from six offerors (the sole-
           source manufacturer and five dealers quoting the sole-source manufacturer’s
           part). The contract was awarded to the sole-source manufacturer based on the
           lower unit price and favorable delivery terms.

                             Table 5. Quotes for Contract SP0750-03-M-P418 (July 2003)
                                                                                                    Percent
                                                                              Deliver   Increase From         Excessiv
                             Quotes                      Qty     Unit Price   y Days      Prior Price         e Profit
         AeroControlex (sole-source manufacturer)            9   $10,009.00    150          115.2                *
         Pioneer Valve and Fitting Co. (dealer)              9    11,449.91    260          146.2                *
         S&L Valves (dealer)                                 9    11,482.33    210          146.9                *
         Comptech Corporation (dealer)                       9    11,560.90    170          148.6                *
         Kampi Components Co., Inc. (dealer)                 9    11,821.67    210          154.2                *
         Southeast Power Systems (dealer)                    9    12,511.36    180          169.0                *
                           Part Prices
         Previous Government contract (December 2002)    17      $ 4,650.29
         OIG cost-based price (December 2004)             *      $    *
         * Contractor proprietary data omitted.



           By using “competition” between a sole-source manufacturer and dealers, the
           contracting officer incorrectly determined the price fair and reasonable despite the
           fact that the price for this item increased over 115 percent from the previous
           procurement only seven months earlier. In addition, the contracting officer did
           not attempt any price negotiations, determine the reasons for the significant price
           increase, or follow established supply center procedures to elevate procurements
           to management when prices have increased over 25 percent within a 12-month
           period.

           FAR Part 15, “Contracting by Negotiation,” defines when adequate competition
           exists. Specifically, FAR Part 15.403-1(c)(1)(i), “Adequate Price Competition,”
           states:
                     A price is based on adequate price competition if two or more
                     responsible offerors, competing independently, submit priced offers


11
     Contractor proprietary data omitted.

                                                        12
       that satisfy the Government’s expressed requirement… [emphasis
       added]

DSCC Guidance. DSCC Acquisition Guide, Part 13, discusses price
reasonableness determinations for simplified acquisitions. DSCC Acquisition
Guide Part 13.106-3(d)(3)(i) states:

       Competitive quotations from two or more sources will normally
       produce a price that can be determined fair and reasonable. For
       acquisitions within the SAT [simplified acquisition threshold]
       competition between one manufacturer and its dealer(s), or two dealers
       offering the product of the same manufacturer is acceptable.

DSCR Guidance. The DSCR Acquisition Procedures Exhibit 15.A-2 defines the
meaning of each price reasonableness code. Specifically the guidance states:
       PRC [Price Reasonableness Code] “BB” shall be used when there is
       adequate price competition involving either 1 manufacturer plus at
       least 1 independent non-manufacturing source for the item or 2 or more
       independent non-manufacturing sources.

       DLSC [Defense Logistics Support Command] has advised the fact that
       a non-manufacturer purchases an item from a manufacturer does not
       totally imply the manufacturer has control over the price at which the
       non-manufacturer will offer that item to the Government, nor does it
       preclude independent competition between the two offerors. The FAR
       requirement that offerors compete independently relates to the
       possibility of situations involving price fixing, collusion, or offers from
       companies whose financial relationship is such that the manufacturer
       exercises substantial control or influence over the non-manufacturers
       price.

       Buyers are cautioned about manufacturers who arbitrarily create a
       network of non-manufacturers by only selling these products to these
       sources to insulate their pricing from government scrutiny. The buyer
       should be alert to situations where the non-manufacturer appears to
       provide no value to the procurement process.

       Sound judgment is required of the buyer when using PRC “BB”. The
       buyer must establish the extent of any control the manufacturer
       exercises over the non-manufacturers.

The supply center guidance fails to meet the FAR definition of adequate price
competition because the sole-source manufacturer has direct knowledge and
control of both the sales price and the delivery terms of its competitor (the
dealer), which creates an unfair advantage and prevents independent competition.

DLA needs to require the Commanders of DSCC and DSCR to discontinue using
competition between sole-source manufacturers and dealers to determine price
reasonableness.


                                          13
Other Matters of Interest
     DSCC contracting officials failed to adequately administer option year pricing for
     contract SP0740-02-D-1041. As of July 2005, for the 15 items reviewed, a total
     of 129 orders were placed during the option years. The Government paid the
     wrong price for 61 of the 129 orders (47.3 percent). Contract prices are adjusted
     each year according to the Producers Price Index. Contract prices for the first
     option year were lower than during the base contract period because the index
     decreased slightly. However, because 44 purchases were made during the first
     option year at base year prices, the Government paid more for those orders than
     necessary. The index increased during the second option year and resulted in the
     second option year prices being higher than both the base and first option year
     prices. However, because 17 orders during the second option year were paid at
     prices from the first option year, the Government actually paid less for those
     orders. The effect of these wrong option year prices was a net overpayment of
     $165.17. Although the dollar value of overpayment is not significant, the fact
     that almost half of the option year orders placed for these 15 items were paid at
     the wrong price indicates a larger systemic contract administration problem.
     According to the contracting officer, this problem is repeatedly seen at DSCC
     because many of the employees completing the option year delivery orders are
     new contracting officials who lack the necessary experience.

     DLA needs to require the Commander, DSCC to develop procedures and
     appropriate controls to ensure option year pricing for delivery orders is accurate.


Conclusion
     The acquisition of sole-source spare parts presents a unique problem for DoD
     contracting officers because of the absence of market forces and a competitive
     pricing strategy to control prices. Contracting officers must also deal with the
     increasing use of the commercial item exception to cost or pricing data for sole-
     source military-unique parts without the existence of a true commercial market.

     In June 1995, the Director, Defense Procurement provided comments on the
     benefits of TINA, marketplace pricing, and the differences between DoD and
     commercial procurement environments.
            The requirements of TINA are necessary to ensure the integrity of DoD
            spending for military goods and services that are not subject to
            marketplace pricing. When there is a market that establishes prices by
            the forces of supply and demand, the market provides the oversight.
            DoD procures many highly complex military systems in the absence of
            supply/demand situations for these relatively low volume, unique
            military goods. The requirements of TINA address legitimate and
            necessary differences between DoD and commercial procurement
            environments.




                                             14
       While DoD recognizes the need for TINA, it also is moving to increase
       competition and decrease the number of pricing actions that would
       require cost or pricing data. The implementation of FASTA [now
       commonly referred to as FASA], with its emphasis on encouraging the
       acquisition of commercial end items and increased competition, will
       bring the requisite market forces to bear on prices, and thus exempt
       contractors from the requirement to submit cost or pricing data. Absent
       this competition, the quantitative benefit to the Government of TINA
       compliance far exceeds the cost of Government oversight.

The Boeing KC-767A Aerial Refueling Tanker program highlighted the abuses of
the commercial item definition that can occur. DoD IG Report No. D-2004-064,
“Acquisition of the Boeing KC-767A Tanker Aircraft,” found that a commercial
market did not exist to establish a reasonable price, which placed DoD at high
risk of paying billions more than necessary for the new weapon system. When a
sole-source item is determined commercial, contracting officers are limited in the
amount of information that they can request, and the contractor is exempt from
the requirement to submit cost or pricing data.

Contracting officers can request information other than cost or pricing data when
sufficient information is not available to establish price reasonableness through
other means. However, contractors do not always comply with the contracting
officers’ requests for information. For example, contracting officers had
difficulty obtaining cost data or sufficient timely responses to requests for
information from TransDigm. When contracting officers requested information
other than cost or pricing data to support substantial price increases, TransDigm
routinely refused to provide the requested data. TransDigm’s refusal to provide
requested information delayed negotiations, resulting in longer administrative
lead times, rising military demands, and in some cases urgent procurements. The
following are examples from contract documentation of specific responses from
TransDigm when DLA contracting representatives requested information other
than cost or pricing data.

   •   TransDigm does not provide informal cost breakdowns or cost data for
       small purchases (2 instances).

   •   TransDigm is unable to provide a cost breakdown for orders under
       $100,000 (2 instances).

   •   TransDigm no longer offers cost breakdowns.

   •   TransDigm does not provide cost data for purchases under $550,000.

   •   TransDigm considers this item proprietary and commercial and will not
       provide any cost breakdown.

   •   TransDigm accepts the Government counteroffer instead of providing a
       cost breakdown.

   •   Due to the total dollar value of the request for quote, an informal cost
       breakdown cannot be prepared at this time. The prices quoted are based

                                         15
                    on TransDigm’s current material costs, labor, overhead, and general and
                    administrative rates, which have been audited by the U.S. Government.

                •   TransDigm is unable to provide informal cost breakdowns due to limited
                    accounting resources.

                •   TransDigm’s quote is based on increases in material and labor costs.
                    Material has escalated 12 percent while labor and overhead has increased
                    close to 12 percent.

                •   TransDigm did not respond to the request (6 instances).

                •   TransDigm stated it is not the company’s policy to give cost data
                    (2 instances).

                •   TransDigm offered a lower unit price only if that price is found fair and
                    reasonable by the contracting officer.

           Sole-source contractors, like TransDigm, are increasingly less willing to provide
           cost data to ensure the integrity of prices and enable DoD contracting officers to
           negotiate fair and reasonable prices. The more frequent use of price analysis of
           previous Government prices instead of price analysis of commercial sales in
           similar quantities to non-Government customers is often ineffective without
           validating the comparison or the reasonableness of the prior price.

           Consequently, DoD contracting officers have limited tools to obtain sole-source
           spare parts at fair and reasonable prices. DLA has had success using strategic
           supplier relationships with key sole-source manufacturers and obtaining cost
           information to support fair and reasonable prices. For example, the DLA-
           Honeywell International strategic supplier alliance uses cost analysis to support
           fair and reasonable prices. This strategic supplier alliance enabled DLA to place
           over 10,000 items on long-term contracts that reduced prices, increased
           availability, enabled more accurate forecasting, and reduced administrative lead
           times and inventory.

           Another option is for DLA to reengineer or develop a Government-owned
           technical data package and qualify new sources to establish a competitive market
           for high dollar sole-source parts. For example, DLA and the Air Force are
           attempting to address TransDigm’s unreasonable prices by funding a
           reengineering project to develop a fully competitive technical data package for
           the oil pump assembly housing (NSN 2990-01-259-0589). That technical data
           package could be solicited to other vendors to obtain reasonable prices. However,
           this process is lengthy and can be expensive.

           DLA needs to either establish a strategic supplier alliance with TransDigm
           subsidiaries using cost data to negotiate fair and reasonable prices or develop and
           execute a strategy to reengineer and competitively procure high dollar value spare
           parts.

12
     Contractor proprietary data omitted.

                                                 16
Recommendations, Management Comments, and Audit
  Response
    We recommend that the Director, Defense Logistics Agency:

            1. Alert contracting officers, when using price analysis of previous
    Government prices to determine price reasonableness for sole-source spare
    parts, to perform periodic cost analysis to establish the validity of the
    comparison and the reasonableness of the previous prices.

    Management Comments. The Director of Logistics Operations, DLA partially
    concurred with the recommendation. The Director commented that cost analysis
    can be a beneficial supplement to price analysis for determining price
    reasonableness, but the best intentions of procurement personnel to obtain cost
    data can and often have been thwarted. The Director also commented that
    guidance will be standardized, disseminated, and incorporated into local training.
    All actions will be completed by September 29, 2006.

    Audit Response. We consider the DLA comments responsive.

           2. Discontinue using the Navy Price Fighters to perform price
    analyses similar to the work performed by DLA contracting representatives
    on spare parts procurements.

    Management Comments. The Director of Logistics Operations, DLA partially
    concurred with the recommendation. The Director commented that the
    identification of one instance of an apparent support deficiency by the IG has
    enabled both DLA and the Navy to make procedural adjustments to prevent future
    occurrences. All actions were considered complete.

    Audit Response. We consider the DLA comments responsive.

          3. Emphasize the importance of validating the reasonableness of
    previous Government prices when using price analysis as a tool to justify fair
    and reasonable prices.

    Management Comments. The Director of Logistics Operations, DLA concurred
    with the recommendation. The Director commented that emphasis will be placed
    on improved analyses and thorough documentation at forthcoming training
    seminars for their procurement personnel. All actions will be completed by
    June 30, 2006.

    Audit Response. We consider the DLA comments responsive.

           4. Emphasize the importance of obtaining cost or pricing data and the
    necessity to provide adequate justifications for waivers to cost or pricing
    data for sole-source items.

    Management Comments. The Director of Logistics Operations, DLA concurred
    with the recommendation. The Director commented that the validation of the
                                        17
offeror’s current or recent cost data in conjunction with price analysis provides
the greatest assurance of determining fair and reasonable prices. The Director
commented that lesser results are achieved when a supplier refuses to provide any
cost information and negotiate a fair and reasonable price as documented in the
report. The Director also commented that DLA will communicate to procurement
personnel and managers the importance of obtaining cost data, adequate
justifications for waivers, and the vigorous pursuit of alternative actions. All
actions will be completed by September 29, 2006.

Audit Response. We consider the DLA comments responsive.

        5. Seek a voluntary refund of about $2.6 million for overpriced parts
identified in the report where contracting officers made a reasonable attempt
to obtain cost data but were denied the information.

Management Comments. The Director of Logistics Operations, DLA partially
concurred with the recommendation. The Director commented that prompt action
is planned, although the profit rate used in the calculations is under further review
to determine if it is excessive. All actions will be completed by March 31, 2006.

Audit Response. We consider the DLA comments responsive.

      6. Require the Commanders of the Defense Supply Centers in
Columbus, Ohio, and Richmond, Virginia, to discontinue using competition
between sole-source manufacturers and dealers to determine price
reasonableness.

Management Comments. The Director of Logistics Operations, DLA partially
concurred with the recommendation. The Director commented that research of
the individual circumstances of the procurements summarized in the report will
determine whether the competition was properly or improperly used to determine
price reasonableness. The Director also commented that because the
dealer/manufacturer competition can be valid in some instances, DLA will not
prohibit the practice. All actions will be completed by June 30, 2006.

Audit Response. Although DLA partially concurred with the recommendation,
we do not feel their comments meet the intent of the recommendation. As shown
in the report, the sole-source manufacturer and dealers did not operate
independently and thus fail to meet the FAR definition of adequate competition
because the dealers are reliant on the sole-source manufacturer to obtain the parts
necessary to fill the Governments requirements. Further, the sole-source
manufacturer has complete control over key contract terms (price and delivery),
which clearly provides an advantage to the sole-source manufacturer. Dealers
stated that they do not stock the item, but attempt to obtain the item from the sole-
source manufacturer when the Government requirement becomes known. Given
these circumstances, competition between a sole-source manufacturer and dealers
will not provide appropriate information to establish price reasonableness for
sole-source items. We request that the Director, DLA provide additional
comments to the final report explaining how competition between a sole-source
manufacturer and dealers that do not stock large quantities of items meets the


                                     18
FAR definition of adequate competition and is effective in obtaining appropriate
information to determine price reasonableness.

       7. Require the Commander Defense Supply Center Columbus, Ohio,
to develop procedures and appropriate controls to administer accurate
option year pricing for delivery order contracts.

Management Comments. The Director of Logistics Operations, DLA partially
concurred with the recommendation. The Director commented that DSCC will
determine the nature and cause of the errors and determine whether it is an
isolated or systemic problem. DSCC will, as appropriate, develop procedures and
conduct training in calculating option year prices. All actions will be completed
by September 29, 2006.

Audit Response. We consider the DLA comments responsive.

       8. Either establish a strategic supplier alliance with TransDigm
subsidiaries using cost data to negotiate fair and reasonable prices or develop
and execute a strategy to reengineer and competitively procure high dollar
value spare parts.

Management Comments. The Director of Logistics Operations, DLA partially
concurred with the recommendation. The Director commented that a shared
benefit partnership with TransDigm is desired. The Director plans to hold
discussions with TransDigm to achieve improvements in the relationship, to
include obtaining information and other means of supporting price
reasonableness. The Director also commented that supply chains have been asked
to report on the suitability of reverse engineering TransDigm items. All actions
will be completed by June 30, 2006.

Audit Response. We consider the DLA comments responsive.




                                   19
Appendix A. Scope and Methodology
           We visited and contacted individuals at DLA and TransDigm (AeroControlex,
           Adel Wiggins, Adams Rite Aerospace, Champion Aerospace, and Marathon
           Norco Aerospace). During site visits to the Defense Supply Centers in Columbus,
           Ohio; Richmond, Virginia; and Philadelphia, Pennsylvania; we interviewed
           buyers and contracting officers and reviewed contract documentation relating to
           acquisitions and buying experiences with the contractor. We also reviewed
           contract documentation to evaluate how contract prices were determined fair and
           reasonable. Specifically, we reviewed Price Negotiation Memorandums,
           quotations received, evaluation of offers, negotiations, and justification for
           awarding the contract. We also determined whether buyers and contracting
           officers followed applicable rules and regulations in awarding the contracts. We
           reviewed Price Reasonableness Codes assigned to the contracts to determine
           whether the codes accurately reflected the methodology used by the buyer when
           making a fair and reasonable price determination. In addition, we surveyed 10
           dealers to determine their process for bidding on a Government requirement.

           Contract Selection Process. We used the DD350 database to identify FY 2003
           contract actions by TransDigm and its subsidiaries. For FY 2003, we identified
           208 contract actions totaling $19.4 million for 3 subsidiaries of TransDigm
           (AeroControlex, 142 actions valued at $14.2 million; Marathon Norco Aerospace,
           49 actions valued at $4.5 million; and Adel Wiggins, 17 actions valued at
           $0.7 million).

           As shown in the DD350 database, DSCC and DSCR were the top two contracting
           offices, representing 68 percent of total contract actions with TransDigm. We
           selected 85 contracts to review, which represented at least 80 percent of the total
           contract actions from each contracting office. The FY 2003 actions in the DD350
           database for the 85 contracts totaled $10.6 million (DSCC, 31 contracts valued at
           $4.2 million; DSCR, 54 contracts valued at $6.4 million). In addition, we
           included eight contracts (three at DSCC, five at DSCR) that contained parts
           covered under the Honeywell lubrication and scavenge pump product line
           licensing agreement. Five contracts we requested (one at DSCC, four at DSCR)
           could not be located and three additional contracts were added for items included
           in our scope. Consequently, we reviewed a total of 91 contracts valued at
           $17.9 million1 (DSCC, 36 contracts valued at $10.16 million; DSCR, 55 contracts
           valued at $7.73 million).

           Cost Data Selection Process. From selected contracts, we identified NSNs for
           spare parts DLA purchased, and we obtained FY 2004 demand and pricing
           information from the DLA Standard Automated Material Management System,
           provided by the Defense Operations Research and Resource Analysis Office. We
           selected a total of 41 sole-source items with an annual demand of $5.6 million and
           obtained information other than cost or pricing data from the contractor for those

1
    The contract value was calculated based on the actual contractual amounts purchased and for two
    indefinite-quantity contracts by reviewing procurement histories from Haystacks Online for Windows as
    of July 18, 2005.

                                                     20
           items. Of those, 23 items had an annual demand of at least $100,000, 16 items
           had the highest demand from DSCC contract SPO740-02-D-1041, and 2 items
           were selected based on correspondence contained in a contract file and a previous
           audit.

           Expansion of Review. After we found significant pricing problems with the
           initial population, we obtained FY 2005 demand and pricing information for
           16 TransDigm subsidiaries’ commercial and Government entity codes from the
           Standard Automated Material Management System. The data identified
                                                                2
           15,166 parts that had an FY 2005 demand of $               . We identified
           373 parts that represented over 80 percent of demand and determined whether the
           item was competitive or sole-source. Of the 373 parts, 211 were sole-source to
                                                            2
           TransDigm and had an annual demand of $                . From this population, we
           selected the 36 highest demand sole-source items not already in our review with
                                                 2
           an FY 2005 annual demand of $               and obtained information other than
           cost or pricing data and commercial sales histories for these items. Therefore, we
                                                                                       2     3
           reviewed a total of 77 items that had an FY 2005 annual demand of $
           or 61.8 percent of the total sole-source item demand. We also reviewed
           49 contracts (37 at DSCR, 11 at DSCC, and 1 at the Defense Supply Center
           Philadelphia) for the additional items. Thus, we reviewed a total of 140 contracts
           during the course of the audit.

           Information Obtained From Contractors. We obtained and reviewed
           information other than cost or pricing data and commercial sales histories from
           TransDigm subsidiaries. We performed cost analysis to determine whether DLA
           was paying fair and reasonable prices for these items and reviewed sales histories
           to determine if a viable commercial market existed for these sole-source spare
           parts. We added a profit in line with other DLA strategic supplier alliances to the
           contractor costs to calculate a cost-based price when performing our analysis.
           Due to time constraints, we did not evaluate the selling, general, and
           administrative expenses, corporate allocations, or the facilities capital cost of
           money rates charged by TransDigm. We applied these costs as proposed by
           TransDigm.

           We performed this audit from June 2004 through August 2005 in accordance with
           generally accepted government auditing standards.

           Use of Computer-Processed Data. To perform the work, we relied on
           computer-processed data from DoD, DLA, and commercial sources. We used
           data from the DD350 database to identify contracts, items, and contracting offices
           to review during the audit. We obtained Standard Automated Material
           Management System data from the Defense Operations Resource and Research
           Analysis Office to include demand data, pricing information, and part numbers.
           We also obtained the procurement history for all items reviewed from Haystacks
           Online for Windows, a commercial system. The computer-processed data and

2
    Contractor proprietary data omitted.
3
    We calculated annual demand dollars used for selecting the additional items by using the DLA mean
    acquisition unit cost. The mean acquisition unit cost represents an average of all contract purchases
    within 1 year. The annual demand of $[contractor proprietary data omitted] used throughout the
    remainder of the report is based on the most recent contract price as of July 18, 2005.

                                                       21
procurement history data were determined reliable based on a comparison with
actual source documents. In addition, we have used Haystacks Online for
Windows for the past several audits and have not found any material errors or
discrepancies.

We also relied on information other than cost or pricing data and commercial
sales histories provided by TransDigm subsidiaries to determine whether prices
charged were fair and reasonable and whether a viable commercial market existed
for the spare parts reviewed. We did not validate the data, but we compared the
data to actual source documents and found no material errors. We also reviewed
Defense Contract Audit Agency reports on proposed rates and accounting systems
for TransDigm subsidiaries.

We did not find errors that would preclude the use of the computer-processed data
to meet the audit objectives or that would change the conclusions reached in the
report.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Defense Contract Management high-risk area.




                                    22
Appendix B. Prior Coverage
   During the last 8 years, the Government Accountability Office (GAO) and the
   DoD IG have issued 26 reports discussing spare parts pricing or waivers to the
   cost or pricing data requirement. Unrestricted GAO reports can be accessed at
   http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
   http://www.dodig.mil/audit/reports.


GAO
   GAO Report No. GAO-05-169, “Contract Management: The Air Force Should
   Improve How It Purchases AWACS Spare Parts,” February 15, 2005

   GAO Report No. GAO-02-565, “Defense Acquisitions: Navy Needs Plan to
   Address Rising Prices in Aviation Parts,” May 31, 2002

   GAO Report No. GAO-02-452, “Defense Inventory: Trends in Services’ Spare
   Parts Purchased from the Defense Logistics Agency,” April 30, 2002

   GAO Report No. GAO-02-502, “Contract Management: DoD Needs Better
   Guidance on Granting Waivers for Certified Cost or Pricing Data,” April 22, 2002

   GAO Report No. GAO-02-505, “Defense Acquisitions: Status of Defense
   Logistics Agency’s Efforts to Address Spare Part Price Increases,” April 8, 2002

   GAO Report No. GAO-01-23, “Defense Acquisitions: Prices of Navy Aviation
   Spare Parts Have Increased,” November 6, 2000

   GAO Report No. GAO-01-22 (OSD Case No. 2080), “Defense Acquisitions:
   Price Trends for Defense Logistics Agency’s Weapon Systems Parts,”
   November 3, 2000

   GAO Report No. NSIAD-00-123, “Defense Acquisitions: Prices of Marine Corps
   Spare Parts Have Increased,” July 31, 2000

   GAO Report No. NSIAD-00-30 (OSD Case No. 1920), “Defense Inventory:
   Opportunities Exist to Expand the Use of Defense Logistics Agency Best
   Practices,” January 26, 2000

   GAO Report No. NSIAD-00-22 (OSD Case No. 1903), “Contract Management:
   A Comparison of DoD and Commercial Airline Purchasing Practices,”
   November 29, 1999

   GAO Report No. NSIAD-99-90 (OSD Case No. 1808), “Contract Management:
   DoD Pricing of Commercial Items Needs Continued Emphasis,” June 24, 1999



                                      23
DoD IG
    DoD IG Report No. D-2004-012, “Sole-Source Spare Parts Procured From an
    Exclusive Distributor,” October 16, 2003

    DoD IG Report No. D-2002-112, “Industrial Prime Vendor Program at the Air
    Force Logistics Centers,” June 20, 2002

    DoD IG Report No. D-2002-059, “Results of the Defense Logistics Agency
    Strategic Supplier Alliance with Honeywell International, Incorporated,”
    March 13, 2002

    DoD IG Report No. D-2001-171, “Industrial Prime Vendor Program at the Naval
    Aviation Depot – Cherry Point,” August 6, 2001

    DoD IG Report No. D-2001-129, “Contracting Officer Determinations of Price
    Reasonableness When Cost or Pricing Data Were Not Obtained,” May 30, 2001

    DoD IG Report No. D-2001-072, “Industrial Prime Vendor Program at the Naval
    Aviation Depot – North Island,” March 5, 2001

    DoD IG Report No. D-2001-001, “Contract Award for the Fluid Flow Restrictor
    Spare Part,” October 3, 2000

    DoD IG Report No. D-2000-192, “Results of the Defense Logistics Agency
    Strategic Supplier Alliance for Catalog Items,” September 29, 2000

    DoD IG Report No. D-2000-099, “Procurement of the Propeller Blade Heaters for
    the C-130 and P-3 Aircraft,” March 8, 2000

    DoD IG Report No. D-2000-098, “Spare Parts and Logistics Support Procured on
    a Virtual Prime Vendor Contract,” March 8, 2000

    DoD IG Report No. 1999-218, “Sole-Source Noncommercial Spare Parts Orders
    on a Basic Ordering Agreement,” July 27, 1999

    DoD IG Report No. 1999-217, “Sole-Source Commercial Spare Parts Procured on
    a Requirements Type Contract,” July 21, 1999

    DoD IG Report No. 1999-026, “Commercial Spare Parts Purchased on a
    Corporate Contract,” October 30, 1998

    DoD IG Report No. 1998-088, “Sole-Source Prices for Commercial Catalog and
    Noncommercial Spare Parts,” March 11, 1998

    DoD IG Report No. 1998-064, “Commercial and Noncommercial Sole-Source
    Items Procured on Contract N000383-93-G-M111,” February 6, 1998




                                      24
Appendix C. Defense Hotline Allegation
            Allegation. AeroControlex erroneously claimed an oil pump assembly housing
            for the F-15 aircraft (NSN 2990-01-259-0589) to be a commercial item in order to
            be exempt from the Federal requirement to provide cost or pricing data and failed
            to provide uncertified cost data to support substantially increasing prices.

            Manufacturing History. The oil pump assembly housing used on the
            F-15 aircraft has been supplied from Honeywell, the original equipment
            manufacturer (OEM), since 1988. AeroControlex began providing this part to
            DoD when manufacturing responsibility was transferred from Honeywell
            International in a 2001 licensing agreement. AeroControlex does not actually
                                                                1
            manufacture the part; they purchase it from                    .

            Audit Results. The allegation was substantiated. DLA paid 1 percent or over
            $ 1      more than a fair and reasonable price for 578 oil pump assembly
            housings because AeroControlex erroneously claimed the item was commercial
            and refused to provide any cost data to support their price. The figure below
            shows the oil pump assembly supplied by AeroControlex.




                                                      1




            Oil Pump Assembly Housing supplied by AeroControlex



1
    Contractor proprietary data omitted.

                                               25
The table below shows the profit AeroControlex was paid and the OIG cost-based
price.

         Excessive Profit Paid to AeroControlex for 578 Oil Pump Assembly Housings
                                    (NSN 2990-01-259-0589)
                                                       Unit Price    Percent    Total Price
              3
                               Price to AeroControlex   $ 3             -            -
AeroControlex Burden Applied1                               3           3
                                                                                     -
                                                            3
Total AeroControlex Cost                                                -            -
                                                                        3
Contract Price                                           3,663.36               $2,117,422
OIG Cost-Based Price2                                         3                            3


                                                                            3              3
Excessive Profit
1
  The burden cost consists of the following cost elements: material overhead, sales, general and
administrative, and facilities capital cost of money.
2
  The OIG cost-based price was calculated based on current cost data provided by the company plus
a profit in line with other DLA strategic supplier alliances.
3
  Contractor proprietary data omitted.


Request for Cost or Pricing Data. On May 22, 2003, DSCC made their initial
request for cost or pricing data. AeroControlex did not respond to the DSCC
request, so on May 30, 2003, the contracting officer again requested cost or
pricing data and notified AeroControlex that the Air Force was experiencing a
work stoppage. Throughout June and July 2003, the DSCC contracting officer
repeatedly e-mailed, called, and sent facsimiles to AeroControlex regarding the
urgent need for the item. According to contract documentation, the DSCC
contracting officer notified three additional individuals within AeroControlex
about the work stoppage during this period. In each case, AeroControlex failed to
respond to the contracting officer’s urgent requests. In a November 7, 2003,
letter, the president of AeroControlex acknowledged DoD’s urgent requirement
for the item.

Commerciality Claim. On June 4, 2003, AeroControlex claimed the item to be a
commercial item despite the fact that the OEM, Honeywell, had never claimed the
item to be commercial. AeroControlex stated they sell a similar component to the
commercial market and provided the following documentation in support of their
claim:

       •    commercial catalog price;

       •    sales order for a quantity of one to a foreign firm for the commercially
            similar part; and

       •    sales orders for the exact part to Honeywell, the OEM, to support an
            existing DoD contract.

AeroControlex stated the documentation was sufficient to determine the quoted
price fair and reasonable. However, the limited documentation failed to meet the

                                         26
           intent of FAR 52.215-20, “Requirements for Cost or Pricing Data or Information
           Other Than Cost or Pricing Data,” which requires information on prices for the
           same or similar items sold in the commercial market. That information must be
           adequate for evaluating the reasonableness of the price for current acquisitions.
           The documentation provided did not adequately meet the intent of the regulation
           because the quantities sold were not comparable to Government requirements.
           AeroControlex provided 1 invoice for 1 item claimed to be commercially
           similar, while the current Government requirement was 578 units.

           On June 24, 2003, the DSCC contracting officer requested additional commercial
           sales information. On September 8, 2003, AeroControlex provided one invoice
           showing sales of seven units of the exact item to Honeywell, the OEM. Further,
           on November 12, 2003, DSCC requested additional commercial sales data from
           the president of AeroControlex. On November 21, 2003, the president of
           AeroControlex provided 2 invoices showing sales of 49 units of the exact item to
           Honeywell, the OEM. The DSCC contracting officer inappropriately determined
           the item was commercial even though the information provided by AeroControlex
           was insufficient to meet Federal requirements.

           Request for Information Other Than Cost or Pricing Data. The contracting
           officer requested additional information to determine whether the offered price
           was fair and reasonable because the price increased significantly—71.8 percent
           from the most recent procurement from Honeywell 21 months earlier.
           AeroControlex did not respond to the request, so the contracting officer properly
           raised this procurement issue through the chain of command beginning on
           August 18, 2003. DSCC management officials negotiated pricing with
           AeroControlex over several months. AeroControlex eventually offered a unit
           price of $ 2 contingent on the contracting officer determining the price fair and
           reasonable. DSCC management officials determined that the offered price was
           not fair and reasonable and ultimately awarded the contract to AeroControlex at
           the unit price of $3,663.36 because the Government’s need for the item was
           urgent.




2
    Contractor proprietary data omitted.




                                               27
     Appendix D. Comparison of Contract and OIG Cost-Based Prices
                                                                            Contract Price                   OIG Cost-Based Price     Excessive Profit
     NSN                     Contractor             Qty1      Date                 Unit2             Total      Unit3         Total   Amount       Percent
     1680-01-043-6817     Adams Rite4                 6
                                                           Sept. 17, 2004        $ 471.63    $   6
                                                                                                              $   6
                                                                                                                           $   6
                                                                                                                                      $   6         6


     1680-01-095-7507     Adams Rite4                 6
                                                           Nov. 22, 2004           464.96        6                6            6          6         6


     1680-01-102-6066     Adams Rite4                 6
                                                           Dec. 29, 2004           977.37        6                6            6          6         6

                                                                                                 6                             6          6         6
     Adams Rite Subtotal (3 Items)                                                           $                             $          $

                                                      6                                          6                6            6          6         6
     2835-00-545-9285     Adel Wiggins                     Apr. 17, 2005         $1,238.00   $                $            $          $
                                                      6                                          6                6            6          6         6
     4730-00-057-3074     Adel Wiggins                     Mar. 17, 2005          1,291.85
                                                      6                                          6                6            6          6         6
     4730-00-077-0965     Adel Wiggins                       Jan. 7, 2004           722.83
                                                      6                                          6                6            6          6         6
     4730-00-111-2538     Adel Wiggins                     Dec. 23, 2004            469.04
                                                      6                                          6                6            6          6         6
     4730-00-111-2539     Adel Wiggins                     Apr. 18, 2005            319.69
                                                      6                                          6                6            6          6         6
     4730-00-275-7943     Adel Wiggins                     Mar. 31, 2005          1,209.85
                                                      6                                          6                6            6          6         6
     4730-00-309-2678     Adel Wiggins                     Feb. 10, 2005            309.64
                                                      6                                          6                6            6          6         6
     4730-00-333-5311     Adel Wiggins                       Apr. 8, 2005           412.19
28




                                                      6                                          6                6            6          6         6
     4730-00-555-9263     Adel Wiggins                     Sept. 30, 2004           724.27
                                                      6                                          6                6            6          6         6
     4730-00-803-7727     Adel Wiggins                     Feb. 11, 2005            194.03
                                                      6                                          6                6            6          6         6
     4730-00-837-2459     Adel Wiggins                     Apr. 24, 2003            496.00
                                                      6                                          6                6            6          6         6
     4730-01-029-7790     Adel Wiggins                     Feb. 10, 2005            607.62
                                                      6                                          6                6            6          6         6
     4730-01-054-1118     Adel Wiggins                     Apr. 15, 2005            479.73
                                                      6                                          6                6            6          6         6
     4730-01-080-4723     Adel Wiggins                      Sept. 6, 2002         2,453.88
                                                      6                                          6                6            6          6         6
     4730-01-123-6898     Adel Wiggins                      Jan. 21, 2005         1,401.43
                                                      6                                          6                6            6          6         6
     4730-01-200-0850     Adel Wiggins                     Aug. 23, 2004          1,420.53
                                                      6                                          6                6            6          6         6
     4820-00-100-4337     Adel Wiggins                     Apr. 18, 2005            341.81
                                                      6                                          6                6            6          6         6
     4820-01-030-7160     Adel Wiggins                       Apr. 5, 2005         1,714.64
                                                      6                                          6                6            6          6         6
     4930-00-516-0839     Adel Wiggins                     May 28, 2004             634.00
                                                                                                 6                             6          6         6
     Adel Wiggins Subtotal (19)                                                              $                             $          $

                                                      6                                          6                6            6          6         6
     1615-01-172-5065        AeroControlex                 Oct. 22, 2004         $4,287.00   $                $            $          $
                                                      6                                          6                6            6          6         6
     1615-01-172-5066        AeroControlex                 Dec. 7, 2004           4,980.00



     Note: See the footnotes at the end of the appendix.
     Appendix D. Comparison of Contract and OIG Cost-Based Prices (cont’d)
                                                                            Contract Price                   OIG Cost-Based Price      Excessive Profit
     NSN                     Contractor             Qty1      Date                 Unit2             Total      Unit3         Total   Amount         Percent
                                                      6                                          6                6            6          6          6
     1615-01-172-5067        AeroControlex                 Nov. 29, 2004        $ 5,266.00   $                $            $          $
                                                      6                                          6                6            6          6          6
     1615-01-172-5068        AeroControlex                 Apr. 21, 2004          3,381.00
                                                      6                                          6                6            6          6          6
     1680-01-115-7063        AeroControlex                 Nov. 10, 2004          2,504.00
                                                      6                                          6                6            6          6          6
     1680-01-115-7064        AeroControlex                  July 22, 2004         2,221.35
                                                      6                                          6                6            6          6          6
     1680-01-203-7388        AeroControlex                 Dec. 10, 2004          1,607.00
                                                      6                                          6                6            6          6          6
     1680-01-203-7389        AeroControlex                  Jan. 12, 2005         3,015.00
                                                      6                                          6                6            6          6          6
     1680-01-235-2571        AeroControlex                 Sept. 20, 2004         4,576.00
                                                      6                                          6                6            6          6          6
     2835-00-040-2951        AeroControlex                 June 26, 2003             45.40
                                                      6                                          6                6            6          6          6
     2835-00-111-8035        AeroControlex                  Aug. 9, 2004          3,187.00
                                                      6                                          6                6            6          6          6
     2835-00-335-7565        AeroControlex                  Oct. 29, 2004           469.00
                                                      6                                          6                6            6          6          6
     2835-00-676-9858        AeroControlex                 Apr. 11, 2005          1,388.70
                                                      6                                          6                6            6          6          6
     2835-00-707-8245        AeroControlex                 Apr. 14, 2005          3,825.00
                                                      6                                          6                6            6          6          6
     2835-00-898-2354        AeroControlex                 Apr. 22, 2005          1,797.00
29




                                                      6                                          6                6            6          6          6
     2835-01-224-5834        AeroControlex                 Mar. 11, 2005          2,035.00
                                                      6                                          6                6            6          6          6
     2835-01-269-2835        AeroControlex                   Mar. 5, 2005           296.00
                                                      6                                          6                6            6          6          6
     2915-01-170-1224        AeroControlex                 Apr. 15, 2005          1,554.00
                                                      6                                          6                6            6          6          6
     2990-01-259-0588        AeroControlex                 June 26, 2003          4,112.00
                                                      6                                          6                6            6          6          6
     2990-01-259-0589        AeroControlex                  Jan. 14, 2004         3,663.36
                                                      6                                          6                6            6          6          6
     2995-00-605-2785        AeroControlex                 Dec. 31, 2004          2,340.00
                                                      6                                          6                6            6          6          6
     3010-00-578-3545        AeroControlex                   Oct. 4, 2002         6,578.50
                                                      6                                          6                6            6          6          6
     3040-01-037-8554        AeroControlex                 Mar. 18, 2003          2,127.00
                                                      6                                          6                6            6          6          6
     4460-00-241-6141        AeroControlex                 Feb. 14, 2005            490.26
                                                      6                                          6                6            6          6          6
     4730-00-397-3112        AeroControlex                   Oct. 1, 2004         6,639.00
                                                      6                                          6                6            6          6          6
     4730-00-585-8437        AeroControlex                  Oct. 29, 2004         5,380.00
                                                      6                                          6                6            6          6          6
     4730-00-720-2000        AeroControlex                   Feb. 1, 2005         4,147.00
                                                      6                                          6                6            6          6          6
     4820-01-003-1395        AeroControlex                 May 27, 2003           1,011.75
                                                      6                                          6                6            6          6          6
     4820-01-004-6588        AeroControlex                 Dec. 23, 2004          2,795.52
                                                      6                                          6                6            6          6          6
     4820-01-155-0138        AeroControlex                 Feb. 25, 2005         13,546.00



     Note: See the footnotes at the end of the appendix.
     Appendix D. Comparison of Contract and OIG Cost-Based Prices (cont’d)
                                                                            Contract Price                   OIG Cost-Based Price     Excessive Profit
     NSN                     Contractor             Qty1      Date                 Unit2             Total      Unit3         Total   Amount       Percent
                                                      6                                          6                6            6          6         6
     4820-01-221-5864    AeroControlex                     June 29, 2004         $2,605.00   $                $            $          $
                                                      6                                          6                6            6          6         6
     5905-01-437-4949    AeroControlex                      Nov. 5, 2004          6,427.00
                                                      6                                          6                6            6          6         6
     6610-01-137-5463    AeroControlex                      Jan. 18, 2005         6,722.00
                                                                                                 6                             6          6         6
     AeroControlex Subtotal (33)                                                             $                             $          $

     2840-01-147-0479    Champion5                    6
                                                           Dec. 28, 2004         $2,200.00   $   6
                                                                                                              $   6
                                                                                                                           $   6
                                                                                                                                      $   6         6


     2920-00-770-1641    Champion5                    6
                                                           Sept. 22, 2004           381.00       6                6            6          6         6


     2920-00-776-4482    Champion5                    6
                                                           Sept. 30, 2004            63.42       6                6            6          6         6


     2920-01-074-4992    Champion5                    6
                                                           Nov. 18, 2003            141.00       6                6            6          6         6


     2925-01-033-8948    Champion5                    6
                                                           Feb. 21, 2005            162.00       6                6            6          6         6


     2925-01-034-3141    Champion5                    6
                                                             Oct. 3, 2003           185.63       6                6            6          6         6


     2925-01-093-5479    Champion5                    6
                                                            Jan. 16, 2004           178.25       6                6            6          6         6


     2925-01-107-7939    Champion5                    6
                                                           Feb. 28, 2004            104.37       6                6            6          6         6
30




     2925-01-190-9352    Champion5                    6
                                                             Feb. 4, 2005           176.00       6                6            6          6         6


     2925-01-301-1727    Champion5                    6
                                                           Aug. 14, 2003            209.00       6                6            6          6         6


     2925-01-389-1683    Champion5                    6
                                                             Apr. 1, 2005           102.20       6                6            6          6         6


     2925-01-486-2496    Champion5                    6
                                                            Oct. 28, 2004         1,250.00       6                6            6          6         6


     2925-01-486-2499    Champion5                    6
                                                             Oct. 8, 2004           854.60       6                6            6          6         6


     4730-01-169-1734    Champion5                    6
                                                            Jan. 28, 2005           194.35       6                6            6          6         6


     6130-00-781-3990    Champion5                    6
                                                           Dec. 11, 2002          4,900.00       6                6            6          6         6

                                                                                                 6                             6          6         6
     Champion Subtotal (15)                                                                  $                             $          $

                                                      6                                          6                6            6          6         6
     1560-00-116-7222        Marathon Norco                Apr. 16, 2005         $1,231.43   $                $            $          $
                                                      6                                          6                6            6          6         6
     1560-01-143-8041        Marathon Norco                Mar. 16, 2005            755.00
                                                      6                                          6                6            6          6         6
     6140-00-712-3053        Marathon Norco                Jan. 26, 2005          2,185.28
                                                      6                                          6                6            6          6         6
     6140-00-866-6815        Marathon Norco                Mar. 30, 2004          1,784.00
                                                      6                                          6                6            6          6         6
     6140-01-086-3440        Marathon Norco                Apr. 14, 2005          1,185.00



     Note: See the footnotes at the end of the appendix.
     Appendix D. Comparison of Contract and OIG Cost-Based Prices (cont’d)
                                                                                              Contract Price                       OIG Cost-Based Price                         Excessive Profit
     NSN                        Contractor              Qty1           Date                   Unit2          Total                    Unit3         Total                       Amount       Percent
                                                          6                                                      6                       6                 6                       6                 6
     6140-01-289-8566   Marathon Norco                              Oct. 22, 2004         $4,318.00          $                       $                 $                       $
                                                          6                                                      6                       6                 6                       6                 6
     6140-01-339-2305   Marathon Norco                             Sept. 30, 2004             74.17
                                                                                                                 6                                         6                       6                 6
     Marathon Norco Subtotal (7)                                                                             $                                         $                       $

                                                                                                                 6                                         6                       6                 6
     Total (77 Items)                                                                                        $                                         $                       $

     1
         Quantity represents the FY 2005 annual demand provided by the DLA Standard Automated Material Management System.
     2
         The contract unit price is the most recent contract price listed in Haystacks for a TransDigm company as of July 18, 2005, or the most recent option year price for a long-term contract.
     3
         The OIG cost-based price is based on cost analysis of the most recent unit cost data provided by the contractor and includes a profit in line with other DLA strategic supplier alliances. Slight
     rounding inconsistencies exist because some auditor calculations went beyond two decimal places.
     4
         Due to direct sales from Adams Rite’s exclusive distributor, [contractor proprietary data omitted], we used [contractor proprietary data omitted] contract prices.
     5
         Champion provided [contractor proprietary data omitted].
     6
         Contractor proprietary data omitted.
31
     Appendix E. Items Identified for Voluntary Refunds
                                                                                            Contract Price                   OIG Cost-Based Price                 Excessive Profits
           NSN               Contract Number                Date           Qty          Unit            Total            Unit1             Total             Amount            Percent
     1680-01-095-7507     SP0460-04-C-0084               July 9, 2004      1,560      $ 352.36         $ 549,682         $ 2               $ 2               $ 2                  2

                                                                                                                             2                 2                   2              2
     1680-01-102-6066     SP0407-05-C-2105              Dec. 29, 2004        353        977.37           345,012
                                                                                                                                               2                   2              2
     Adams Rite Subtotal (2 items)                                                                     $ 894,693                           $                  $

                                                                                                                             2                 2                   2              2
     1615-01-172-5067   SP0407-05-M-G030               Nov. 29, 2004           7      $5,266.00        $   36,862        $                 $                  $
                                                                                                                             2                 2                   2              2
     1615-01-172-5068   SP0460-04-C-0066               Apr. 21, 2004          95       3,381.00           321,195
                                                                                                                             2                 2                   2              2
     1680-01-203-7388   SP0475-03-M-GC38               Nov. 30, 2002          60       1,487.00            89,220
                                                                                                                             2                 2                   2              2
     2835-00-111-8035   SP0480-02-C-1399                Nov. 4, 2002         110       3,537.07           389,078
                                                                                                                             2                 2                   2              2
     2835-00-676-9858   SP0480-04-M-A060               Dec. 19, 2003          12       1,786.24            21,435
                                                                                                                             2                 2                   2              2
     2835-00-707-8245   SP0480-04-M-4181               Nov. 28, 2003          18       3,723.50            67,023
                                                                                                                             2                 2                   2              2
     2835-01-269-2835   SP0480-04-M-4651               June 15, 2004         312         319.00            99,528
                                                                                                                             2                 2                   2              2
     2990-01-259-0589   SP0740-04-C-4647               Dec. 11, 2003         578       3,663.36         2,117,422
                                                                                                                             2                 2                   2              2
     6610-01-137-5463   SP0406-05-M-N807                Jan. 18, 2005          7       6,722.00            47,054
32




                                                                                                                                               2                   2              2
     AeroControlex Subtotal (9)                                                                        $3,188,817                          $                  $

                                                                                                                             2                 2                   2              2
     2840-01-147-0479    SP0407-05-C-2007              Dec. 28, 2004         105      $2,200.00        $ 231,000         $                 $                  $
                                                                                                                             2                 2                   2              2
     2925-01-301-1727    SP0480-02-D-0744               Jan. 21, 2003      1,614         201.00           324,414
                                                                                                                             2                 2                   2              2
                         Option Year                   Aug. 18, 2003         807         209.00           168,663
                                                                                                                             2                 2                   2              2
     2925-01-486-2496    SP0480-05-M-3165              Oct. 28, 2004          31       1,250.00            38,750
                                                                                                                             2                 2                   2              2
     6130-00-781-3990    SP0430-03-C-0931              Nov. 15, 2002          44       4,625.00           203,500
                                                                                                                             2                 2                   2              2
                         Option Year                     Dec. 6, 2002         44       4,900.00           215,600
                                                                                                                                               2                   2              2
     Champion Subtotal (4)                                                                             $1,181,927                          $                  $
                                                                                                                                               2                   2              2
      Total (15 Items)                                                                                 $5,265,437                          $                  $

     1
       OIG cost-based unit price is calculated based on cost analysis of the most recent cost data provided by the contractor and includes a profit in line with other DLA strategic
     supplier alliances. Slight rounding inconsistencies exist because some auditor calculations were beyond two decimal places.
     2
       Contractor proprietary data omitted.
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
   Commander, Defense Supply Center, Columbus, Ohio
   Commander, Defense Supply Center, Richmond, Virginia
   Commander, Defense Supply Center, Philadelphia, Pennsylvania

Non-Defense Federal Organization
Office of Management and Budget




                                          33
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        34
Defense Logistics Agency Comments




                     35
Final Report
 Reference




Pages 14–16




*
    Contractor proprietary data omitted.
                                           36
37
38
39
Final Report
 Reference




Page 13




               40
41
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management Directorate prepared this report.
Personnel of the Department of Defense Office of Inspector General who
contributed to the report are listed below.

Richard B. Jolliffe
Henry F. Kleinknecht
Joseph P. Bucsko
Bradford C. Green
Richard O. Williams
Marc D. Santana
Deanne B. Curry
Jillisa H. Milner
